No.

IN THE
SUPREME COURT OF THE UNITED STATES

BRUCE FELL, Petitioner
vs.
UNITED STATES OF AMERICA, Respondent
PROOF OF SERVICE

I, Kevin Schad, Assistant Federal Public Defender for the Southern District of Ohio,
do swear or declare that on this date, June 17th, 2021, as required by Supreme
Court Rule 29, I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party
to the above proceeding or that party’s counsel, and on every other person required
to be served, by depositing an envelope containing the above documents in the
United States Mail properly addressed to each of them and with first class postage
prepaid.

The names and addresses of those served are?

Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 17th, 2021. LPS

Kevin M. Schad

Attorney for Petitioner

Office of the Federal Public Defender
Southern District of Ohio

250 E. Fifth St. Suite 350

Cincinnati OH 45202

(513) 929-4834

Fax (513) 929-4842

Kevin _schad@fd.org
